Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the Yuba County Sheriff's DepartmentMarysville, California


GR-90-03-012


May 2003
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Yuba County Sheriff's Department (YCSD).  The purpose of the grants is to enhance community policing.  The YCSD was awarded a total of $644,364 to hire 6 new police officers and redeploy the equivalent of 5.7 existing full-time police officers from administrative duties to community policing.
We reviewed the YCSD's compliance with seven essential grant conditions and found no weaknesses in:  budgeting for local officer positions, hiring of additional officers, source of local match, redeployment tracking, community policing and retention of officer positions.  However, as a result of the deficiency identified below, we question $21,166 in grant funds received.1

YCSD charged unallowable costs to the Universal Hiring Program II (UHP II) grant and to the Making Officer Redeployment Effective 96 (MORE 96).

The above items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.